No. 20-748

 

 

In THE
Supreme Court of the United States

PHI Air MEDICAL, LLC,

Petitioner,
v.

TEXAS MUTUAL INSURANCE COMPANY, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Texas

BRIEF FOR AMICUS CURIAE
AIR MEDICAL OPERATORS ASSOCIATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,497 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 30, 2020.

 

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.
